   Oversight Review         July 25, 2007

Review of South Carolina Research Authority's
     FY 2005 Single Audit Performed by
          Deloitte and Touche, LLP

          Report No. D-2007-6-007
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at www.dodig.mil/audit/reports or contact the Office of
  Audit Policy and Oversight at (703) 604-8760 or fax (703) 604-9808.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of Audit Policy
  and Oversight at (703) 604-8760 (DSN 664-8760) or fax (703) 604-9808. Ideas
  and requests can also be mailed to:

                                     OAIG-APO
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 1016)
                             Arlington, VA 22202-4704
  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
D&T           Deloitte and Touche, LLP
GAS           Government Auditing Standards
OMB           Office of Management and Budget
SCRA          South Carolina Research Authority
______________________________________________________________________________

On April 17, 2007 and July 5, 2007, D&T provided sufficient support for their opinion on
internal control and compliance for the deficiencies cited on the three compliance requirements
(Cash Management, Matching, and Reporting), and Federal agencies can now rely on the D&T
audit. The results of our review of the D&T corrective actions are discussed in the finding
below.


Finding
Review of Internal Control and Compliance. The D&T auditors did not adequately document
their understanding of internal control and did not perform sufficient procedures for the review
of Cash Management, Matching, and Reporting compliance requirements. As a result, the
working papers did not provide sufficient evidence to support the overall opinion on internal
control and compliance over Federal program requirements. Because of these deficiencies,
Federal agencies cannot rely on the audit to manage and monitor programs receiving advanced
funds, programs with matching requirements or the accuracy and completeness of financial
reports submitted by SCRA. Also, the D&T working papers did not document an understanding
of internal control processes related to Activities Allowed or Unallowed, Allowable Cost/Cost
Principles, and the Period of Availability compliance requirements. However, except for the
documentation of internal control processes, the auditors performed and documented sufficient
evidence to support their conclusions for these requirements.

OMB Circular A-133 requires the auditor to obtain and document an understanding of internal
control over compliance requirements sufficient to plan the audit to support a low-assessed level
of control risk. The auditor is then required to identify key internal controls and plan and
perform tests of those controls sufficient to support the opinion on Federal programs.

        Cash Management Compliance Requirement. The D&T auditors did not perform
internal control and compliance testing to determine whether SCRA complied with the
requirements of 2 CFR §215.22 by establishing procedures to minimize the time elapsed between
the drawdown and disbursement of advanced payments. Also, the auditors did not perform audit
procedures to determine whether interest earned on advances in excess of $250 was reported and
remitted to the appropriate agency as specified in the Compliance Supplement. Based on
information provided during our review, SCRA received approximately $35 million in advanced
payments in FY 2005.

       Matching Compliance Requirement. The D&T auditors did not perform procedures to
determine the SCRA internal control over and compliance with the requirements in 2 CFR
§215.23 to determine whether matching contributions came from allowable sources. Based on
information provided during our review, SCRA expended Federal funds on awards with
matching requirements of approximately $15 million.

        Reporting Compliance Requirement. The D&T auditors did not document their
understanding of internal control for the Reporting compliance requirement. The auditors also
did not perform internal control or compliance testing to ensure SCRA complied with the


                                                2
______________________________________________________________________________

requirement of 2 CFR §215.21 that states the financial management system should provide for
accurate, current, and complete financial reporting in accordance with the reporting requirements
in 2 CFR § 215.52. The work papers did contain copies of three reports (Standard Forms 269,
270, and 272); however, based on our review and discussions with D&T, there was no
verification of the accuracy of the financial data contained in the reports.

        Deloitte and Touche Corrective Action. Based on the deficiencies cited during our
quality control review, D&T performed additional procedures for Cash Management, Matching,
and Reporting compliance requirements and provided working paper documentation for our
review. D&T provided subsequent working paper documentation that shows adequate actions
taken on the Cash Management, Matching, and Reporting requirements.

        Documentation of Understanding Internal Control. The auditors identified key
internal controls related to the Activities Allowed or Unallowed/Allowable Costs/Cost
Principles, and Period of Availability compliance requirements; however, they did not document
their understanding of the internal control processes for these requirements. Based on our review
of the working papers and our discussions with the audit manager, we were able to satisfy
ourselves on the adequacy of the audit of these requirements. Auditing standards require that
auditors document their understanding of internal control to support decisions made in the
planning process. We recommend that documentation be enhanced for future single audits. The
audit partner concurred.

Recommendations and Management Comments
Recommendation 1.                      We recommend that the Audit Partner, Deloitte and
Touche, LLP:

       a.    Perform additional audit procedures, at no additional cost to the Government,
             to correct the deficiencies for the three material compliance requirements that
             we identified in our review of the FY 2005 single audit.

       b.    Revise the Reporting Package to reflect, at a minimum, the date the additional
             audit work is completed, and submit the supporting documentation to our
             office for review.

       c.    Forward the revised Reporting Package and signed Data Collection Form to
             the South Carolina Research Authority to file with the Federal Audit
             Clearinghouse.

       d.    Provide the DoD Office of Inspector General with the working papers from the
             FY 2007 single audit that demonstrate the understanding of internal controls
             related to the Activities Allowed or Unallowed, Allowable Costs/Cost
             Principles, and Period of Availability Requirements.



                                                3
______________________________________________________________________________

Appendix A. Quality Control Review Process

Background, Scope and Methodology
The Single Audit Act, Public Law 98-502, as amended, was enacted to improve the financial
management of State and Local Governments and nonprofit organizations by establishing one
uniform set of auditing and reporting requirements for all Federal award recipients required to
obtain a single audit. OMB Circular A-133 establishes policies that guide implementation of the
Single Audit Act and provide an administrative foundation for uniform audit requirements of
non-Federal entities administering Federal awards. Entities that expend $300,000 ($500,000 for
fiscal years ending after December 31, 2003) are subject to the Single Audit Act and the audit
requirements in OMB Circular A-133; therefore they must have an annual single or program-
specific audit performed under Government Auditing Standards and submit a complete reporting
package to the Federal Audit Clearinghouse.

We reviewed the D&T audit of South Carolina Research Authority for FY 2005 and the resulting
reporting package that was submitted to the Federal Audit Clearinghouse dated March 16, 2006,
using the 1999 edition of the “Uniform Quality Control Guide for the A-133 Audits” (the Guide).
The Guide applies to any single audit that is subject to the requirements of OMB Circular A-133
and is the approved checklist of the President’s Council on Integrity and Efficiency for
performing the quality control reviews. We performed the review from March through June
2007. The review focused on the following qualitative aspects of the single audit:

            •     Qualification of Auditors,

            •     Independence,

            •     Due Professional Care,

            •     Planning and Supervision,

            •     Internal Control and Compliance Testing,
            •     Schedule of Expenditures of Federal Awards, and

            •     Data Collection Form.




                                               5
______________________________________________________________________________

Appendix B. Compliance Requirements


       OMB Circular A-133 Compliance            Applicable   Not Applicable
              Requirements

 Activities Allowed/Unallowed                       X

 Allowable Costs/Cost Principles                    X

 Cash Management                                    X

 Davis-Bacon Act                                                   X

 Eligibility                                                       X

 Equipment and Real Property Management             X

 Matching, Level of Effort, Earmarking              X

 Period of Availability of Federal Funds            X

 Procurement, Suspension, and Debarment             X

 Program Income                                                    X

 Real Property Acquisition and Relocation                          X
 Assistance
 Reporting                                          X

 Subrecipient Monitoring                            X

 Special Tests and Provisions                       X




                                            6
______________________________________________________________________________

Appendix C. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
     Director, Defense Procurement and Acquisition Policy

Other Defense Organizations
Director, Defense Contract Audit Agency
       Branch Manager, Defense Contract Audit Agency North Carolina Branch Office

Department of the Air Force
Contracting Officer, Air Force Office of Scientific Research
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Air Force Audit Agency

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Chief, Office of Naval Research
Audit Liaison, Assistant Secretary of the Navy, Financial Management and Comptroller
Naval Inspector General
Auditor General, Department of Navy

Non-Government Organizations
Audit Committee, South Carolina Research Authority
*Chief Financial Officer, South Carolina Research Authority
*Director, Deloitte and Touche, LLP
Concurring Review Partner, Deloitte and Touche, LLP

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs

*Draft Report Recipient
                                              7
______________________________________________________________________________

House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
   Committee on Oversight and Government Reform




                                          8
Deloitte & Touche, LLP Comments




                     9
10
11
South Carolina Research Authority Comments




                     12
